U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 16, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Javier Sanchez, et al. v. United States of America,
S.CtNo. 19-288

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on August 30, 2019. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government's response is now due on October 24, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 25, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0288
SANCHEZ, JAVIER, ET AL.
USA

JEFFREY L. FISHER
O'MELVENY & MYERS LLP
2765 SAND HILL ROAD
MENLO PARK, CA 94025
650-473-2633
JLFISHER@OMM.COM
DAN JACKSON
KEKER VAN NEST & PETERS LLP
633 BATTERY STREET
SAN FRANCISCO, CA 94111-1809
415-676-2214
DJACKSON@KEKER.COM
ER1N E. MURPHY
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20004
202-389-5036
ER1N.MURPHY@KIRKLAND.COM
DENNIS P. RIORDAN
RIORDAN & HORGAN
1611 TELEGRAPH AVE.
SUITE 806
OAKLAND, CA 94612
415-431-3475

